APPENDIX A
Circuit Court for Carroll County
Case No. C-06-CV-18-000160 and 000167
UNREPORTED
IN THE COURT OF SPECIAL APPEALS
OF MARYLAND
Nos. 2947 and 3124
September Term, 2018
JANE DOE

v.
JAMES T. DeWEES, ET AL.
Beachley,
Shaw Geter,
Moylan, Charles E., Jr.
(Senior Judge, Specially
Assigned),
JJ.
PER CURIAM

Filed: May 6, 2020
*This is an unreported opinion, and it may not be

1

cited in any paper, brief, motion, or other document
filed in this Court or any other Maryland Court as
either precedent within the rule of stare decisis or as
persuasive authority. Md. Rule 1-104.
— Unreported Opinion —
In this consolidated appeal from two civil
actions in the Circuit Court for Carroll County, Jane
Doe, appellant, challenges the court’s granting of
appellees’ motions to dismiss the actions. For the
reasons that follow, we shall affirm the judgments of
the circuit court.
On June 27, 2018, Ms. Doe filed in the circuit
court a complaint against Carroll County Sheriff
James T. DeWees, two district court commissioners,
three deputy sheriffs, and four correctional officers.
In the complaint, Ms. Doe, who was not represented
by an attorney, alleged various causes of action
relating to her June 27, 2015 traffic stop and
subsequent arrest and incarceration. Ms. Doe listed
her address as “c/o LWRN,” 5 South Center Street,
#1100, Westminster, Maryland 21157. The court
subsequently assigned to the complaint case number
C-06-CV-18-000160 (hereinafter “case number 18160”). On June 29, 2018, Ms. Doe filed in the circuit
court a second complaint against Sheriff DeWees,
two district court judges, over thirty correctional
officers, nine district court clerks, two prosecutors,
and other parties. In the complaint, Ms. Doe, who
again was not represented by an attorney, alleged
various causes of action arising from her JuneSeptember 2015 incarceration. Ms. Doe again listed
her address as that of LWRN. The court
subsequently assigned to the second complaint case

2

(hereinafter “case
number C-06-CV-18-000167
number 18-167”).
Appellees thereafter moved to dismiss the
complaints on the ground, among others, that Ms.
Doe had “brought her lawsuit[s] anonymously” in
violation of Rule 2-201 (“[e]very action shall be
prosecuted in the name of the real party in interest”).
The court subsequently ordered Ms. Doe to “amend]]
her Complaintfs] to contain her name and full
address.” Ms. Doe thereafter filed in each case an
amended complaint, in which she again listed her
name as “Jane Doe” and her address as that of
LWRN. Ms. Doe also filed a “Notice of Compliance,”
in which she stated that “Jane Doe is an assumed
name” that she “has used continuously for over nine
years,” and contended that she “is at liberty to adopt
any name as her legal name without resort to a
court.” In November 2018, the court granted the
motions to dismiss the complaint in case number 18167 on the ground that “for a period of thirty . . . days
... no Amended Complaint [was] filed by [Ms. Doe]
containing her name and full address pursuant to . . .
Rules 2-201 and 1-311 ” In December 2018, the court
granted the motions to dismiss the complaint in case
number 18-160 for the same reason.
Ms. Doe first contends that the court erred in
dismissing the complaints because “[i]n the absence
of a statute to the contrary, a person may take and
use any name he wants so long as his purpose is not
fraudulent and the use of the name does not interfere
with the rights of others.” But, in Doe v. Shady Grove
Hosp., 89 Md. App. 351 (1991), we recognized that
“allowing a party [in a civil action] to proceed
anonymously” interferes with “the publicf’s]
presumptive right of access to court records,” and to

3

overcome this right, the party “must show that a
compelling governmental interest is served by such
an order[.]” Id. at 365 (citations omitted). Ms. Doe
does not specify any case, and we are unaware of
any, in which a court has found that the right of “a
person [to] take and use any name he wants”
constitutes such a compelling governmental interest.
Hence, Ms. Doe was not entitled to proceed in the
actions anonymously.
Ms. Doe next contends that the court erred in
dismissing the complaints because a “Federal Court
has adjudicated the issue of [her] name.” (Boldface
and underlining omitted.) In July 2018, Ms. Doe filed
in the United States District Court for the District of
Maryland a complaint against Sheriff DeWees and
58 other defendants. Noting that Ms. Doe did “not
explicitly
request
permission
to
proceed
pseudonymously or provide grounds for permitting
her to proceed in such status,” the U.S. District Court
ordered Ms. Doe “to state why she should be
permitted to proceed pseudonymously.” In October
2018, Ms. Doe filed a response, and in February
2019, the U.S. District Court allowed the case to
“proceed with service on [the] Defendants.”
Ms. Doe now contends that a “different result
here may engender a conflict.” But, at the time of the
U.S. District Court’s ruling, the defendants in the
federal action had not yet been served or challenged
the ruling. Also, Ms. Doe does not explain why the
ruling of the U.S. District Court, which occurred
subsequent to the circuit court’s dismissal of the
complaints in the instant matter, requires the circuit
court to vacate its previous rulings and allow Ms.
Doe to proceed anonymously. Finally, we recognized
in Doe that Federal Rule of Civil Procedure 17(a), on

4

which Rule 2-201 “is patterned!,] does not expressly
provide for anonymous plaintiffs!.]” Doe, 89 Md. App.
at 363-64. Hence, the U.S. District Court’s ruling is
not controlling.
Ms. Doe next contends that Rule 1-311
“supplies no basis for dismissal” (boldface omitted),
because “the rule contains no . . . requirement” that
she “set forth her . . . address.” We disagree. Rule 1311(a) explicitly states that “[e]very pleading and
paper of a party who is not represented by an
attorney shall be signed by the party,” and “[e]very
pleading or paper filed shall contain . . . the signer’s
address.” Here, the address contained in Ms. Doe’s
complaints belonged not to her, but to LWRN. When
the court ordered Ms. Doe to amend her complaints
to include her address, she again listed LWRN’s
address. Hence, the court did not err in dismissing
the complaints for violating Rule 1-311.
Finally, Ms. Doe contends that the court
“simply adopted [a]ppellees’ assertions - which do
not constitute evidence - at face value,” and because
there is “a genuine issue of material fact” as to
whether “Jane Doe [is] the name by which the true
plaintiff party in interest can be identified,” the court
erred in failing to hold a hearing on the motions to
dismiss and have the issue “decided by a jury.” We
disagree. In her “Notice of Compliance,” Ms. Doe
explicitly admitted that “Jane Doe” is not her given
name, and that she had used a different name less
than ten years earlier. These admissions were
sufficient for the court to conclude that Ms. Doe was
attempting to proceed anonymously, and hence, the
court did not err in dismissing the complaints for
violating Rule 2-201.1.1

5

JUDGMENTS OF THE CIRCUIT COURT
FOR CARROLL COUNTY AFFIRMED.
COSTS TO BE PAID BY APPELLANT.

6

APPENDIX B
E-FILED
Court of Appeals
Suzanne C. Johnson
Clerk of Court
10/23/2020 11:42 AM
IN THE COURT OF APPEALS
OF MARYLAND
Petition Docket No. 230
September Term, 2020
(Nos. 2947 & 3124, Sept. Term, 2018
Court of Special Appeals)
(Nos. C-06-CV-18-000160 & C-06-CV-18-000167,
Circuit Court for Carroll County)

JANE DOE

v.
JAMES T. DeWEES, et al.

ORDER
Upon consideration of the petition for a writ of
certiorari to the Court of Special Appeals and the
answer filed thereto, in the above-captioned case, it
is this 23rd day of October, 2020

1

ORDERED, by the Court of Appeals of
Maryland, that the petition be, and it is, hereby
DENIED as there has been no showing that review
by certiorari is desirable and in the public interest.
Isl Mary Ellen Barbera
Chief Judge
*Judge Getty did not participate in the consideration
of this matter.

2

